         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Early Warning Report




       EPA Should Prepare and
       Distribute Security
       Classification Guides
       Report No. 11-P-0722

       September 29, 2011
Report Contributors:                               Christine Baughman
                                                   Hilda Canes Garduño
                                                   Allison Dutton
                                                   Christine El-Zoghbi
                                                   Eric Lewis
                                                   Russell Moore




Abbreviations

CFR           Code of Federal Regulations
EO            Executive Order
EPA           U.S. Environmental Protection Agency
ISOO          Information Security Oversight Office
NHSRC         National Homeland Security Research Center
NSI           National security information
OARM          Office of Administration and Resources Management
OCA           Original classification authority
OIG           Office of Inspector General




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                11-P-0722
                                                                                                      September 29, 2011
                        Office of Inspector General


                        At a Glance
                                                                              Catalyst for Improving the Environment


Why We Did This Review              EPA Should Prepare and Distribute
The Office of Inspector
                                    Security Classification Guides
General (OIG) is responsible
for independently reviewing         What We Found
U.S. Environmental Protection
Agency (EPA) programs               EPA has not established any official classification guides even though EPA
related to national security.       Administrators have taken original classification actions. Original classification
We evaluated the scope and          actions involve someone with original classification authority assigning a
nature of EPA’s classified          classification level to a particular document. According to the NSI program team
national security information       leader, classification guides have not been prepared because EPA Administrators
(NSI) infrastructure, and its       have only classified a few documents. Executive Order 13526 states that agencies
ability to provide information      with original classification authority shall prepare classification guides to
to those who need it.               facilitate the proper and uniform derivative classification of information. Further,
                                    EPA’s National Security Information Handbook requires that a classification
Background                          guide be developed for each system, plan, program, or project that involves
                                    classified information. Without classification guides, EPA staff and other users of
Some EPA staff members are          EPA’s classified information may not be uniformly and consistently identifying
cleared to access, use, and         information for classification, nor classifying information in a uniform and
create classified NSI in the        consistent manner. Ultimately, information that should be identified for
performance of their assigned       safeguarding could be unintentionally released, resulting in harm to national
duties. EPA must protect NSI        security. Therefore, the lack of classification guides is a material internal control
according to executive order        weakness in EPA’s classified NSI program.
and other national and EPA
guidance. EPA policy requires       This report presents a significant finding identified during our ongoing review
that a classification guide shall   that requires immediate attention. We will issue a final report that will discuss
be developed for each system,       other results of our review of EPA’s classified NSI infrastructure.
plan, program, or project in
which classified information is     What We Recommend
involved. The Office of
Administration and Resources        We recommend that the Administrator ensure the preparation, review, and
Management manages EPA’s            approval of appropriate security classification guides that conform to the
NSI program.                        requirements of Executive Order 13526, Classified National Security Information,
                                    and EPA’s NSI handbook. We also recommend that the Administrator ensure the
For further information,            distribution of classification guides to users of EPA’s originally classified
contact our Office of               information and to program offices that work in related subject areas. The Office
Congressional and Public            of Administration and Resources Management, which responded on behalf of the
Affairs at (202) 566-2391.
                                    Agency, did not agree with the report’s conclusions, and the recommendations are
The full report is at:              unresolved.
www.epa.gov/oig/reports/2011/
20110929-11-P-0722.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL



                                       September 29, 2011

MEMORANDUM

SUBJECT:	 EPA Should Prepare and Distribute Security Classification Guides
          Report No. 11-P-0722


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Lisa P. Jackson
               Administrator


This early warning report is to inform you of a finding by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA) that requires your immediate attention. The
purpose of this OIG review was to evaluate the scope and nature of EPA’s national security
information infrastructure, and its ability to disseminate classified information to those who need
it. This report presents a significant OIG finding identified during our ongoing review. This
report represents the opinion of the OIG and does not necessarily represent the final EPA
position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
(202) 566-0827 or najjum.wade@epa.gov, or Eric Lewis at (202) 566-2664 or
lewis.eric@epa.gov.
EPA Should Prepare and Distribute                                                                                             11-P-0722
Security Classification Guides


                                      Table of Contents 

   Purpose .......................................................................................................................    1


   Background ................................................................................................................        1


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          2


           EPA Has Not Established Classification Guides ..................................................                           2

           Reasons for Not Publishing Classification Guides Are Not Valid .........................                                   3

           EPA Uses Other Guidance in Lieu of Classification Guides ................................                                  3

           EPA Classification Guides Could Be Used by Others ..........................................                               4


   Conclusions ................................................................................................................       4


   Recommendations .....................................................................................................              4


   Agency Comments and OIG Evaluation ...................................................................                             5


   Status of Recommendations and Potential Monetary Benefits..............................                                            6




Appendices
   A       Agency Response to the Draft Report and OIG Evaluation ..........................                                          7


   B       E-mail From the Information Security Oversight Office ................................                                    12


   C       Distribution ........................................................................................................     14

Purpose
            The purpose of this review was to evaluate the scope and nature of the U.S.
            Environmental Protection Agency’s (EPA’s) classified national security
            information (NSI) infrastructure, and its ability to provide information to those
            who need it.

Background
            Executive Order (EO) 13526, Classified National Security Information,
            establishes basic guidance for handling classified NSI in the federal government.
            “Classified national security information” or “classified information” is
            information that has been determined, pursuant to EO 13526 or any predecessor
            order, to require protection against unauthorized disclosure. It is marked to
            indicate a classification level of “Confidential,” “Secret,” or “Top Secret.” EPA
            creates, receives, handles, and stores classified material because of its homeland
            security, emergency response, and continuity missions. Information is originally
            classified at the “Confidential” or “Secret” level at EPA because its release could
            damage or seriously damage national security.

            A classification level is assigned by one of two methods:

               1.	 Someone with original classification authority may assign a level to the
                   document.
               2.	 Someone without original classification authority, who is properly
                   authorized and trained per EO 13526, may assign a level based on:
                       a.	 Information already classified that was incorporated, paraphrased,
                           or restated to create the new document, or
                       b.	 A classification guide.

            A classification guide is written guidance signed by someone with original
            classification authority. The classification guide identifies the elements of
            information regarding a specific subject that must be classified, and establishes
            the level and duration of classification for each such element.

            Classification by other than an original authority is called derivative
            classification. EO 13526 states that agencies with original classification authority
            shall prepare classification guides to facilitate the proper and uniform derivative
            classification of information.

            EPA’s National Security Information Handbook requires that a classification
            guide be developed for each system, plan, program, or project that involves
            classified information. Subject-matter experts from a program office or facility
            are responsible for preparing classification guides. The final draft of the guide
            must be submitted to the NSI program team in the Security Management Division
            to ensure compliance with the EO on classified NSI. The NSI program team then

11-P-0722                                                                                       1
            forwards the final draft to the Office of Homeland Security for review and
            processing for approval by the original classification authority.

            The Administrator has the sole authority to originally classify EPA information
            up to and including “Secret.” This authority cannot be delegated to another
            official. Past EPA Administrators had the authority to delegate original
            classification authority but decided to review and approve all original
            classification actions. However, EO 13526, signed on December 29, 2009, does
            not permit the current Administrator to delegate original classification authority.
            Currently, all classification guides at EPA must be approved by the
            Administrator.

Scope and Methodology
            We conducted this evaluation in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the review
            to obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our objectives. We believe that the evidence
            obtained provides a reasonable basis for our findings and conclusions based on
            our evaluation objectives.

            From December 2010 through August 2011, we interviewed staff from the Office
            of Administration and Resources Management (OARM), Security Management
            Division; the Office of Homeland Security; the Office of Research and
            Development, National Homeland Security Research Center (NHSRC); and the
            Office of Solid Waste and Emergency Response, Office of Emergency
            Management. We reviewed national-level and EPA guidance relevant to classified
            NSI, and analyzed other documents and reports related to EPA’s management of
            classified NSI. We have not reviewed any information marked as classified NSI.
            Additional details on our scope and methodology will be included in a separate
            final report that will discuss results of the full Office of Inspector General (OIG)
            review of EPA’s infrastructure for handling classified information.

Results of Review

            EPA Has Not Established Classification Guides

            EPA has not established any official classification guides even though EPA
            Administrators have taken original classification actions. According to the acting
            deputy director of the Security Management Division and the NSI program team
            leader, classification guides have not been prepared because EPA Administrators
            have only classified a few documents. EO 13526 states that agencies with original
            classification authority shall prepare classification guides to facilitate the proper
            and uniform derivative classification of information., EPA’s NSI handbook
            requires that a classification guide be developed for each system, plan, program,
            or project that involves classified information. Without classification guides, EPA

11-P-0722                                                                                     2
            staff and other users of EPA’s classified information may not be uniformly and
            consistently identifying information for classification, nor classifying information
            in a uniform and consistent manner. Ultimately, information that should be
            identified for safeguarding could be unintentionally released, resulting in harm to
            national security. Therefore, the lack of classification guides is a material internal
            control weakness in EPA’s classified NSI program.

            Reasons for Not Publishing Classification Guides Are Not Valid

            According to the acting deputy director of the Security Management Division and
            the NSI program team leader, EPA has not prepared any classification guides for
            information for which the Administrators have used original classification
            authority because the authority has been used infrequently. Two documents were
            classified in 2004, and four documents were classified in 2008. According to the
            senior intelligence advisor in the Office of Homeland Security, the Administrator
            recently exercised original classification authority for a seventh document.
            Classification guides are required to ensure the proper and uniform derivative
            classification of information. The infrequent use of original classification
            authority at EPA does not relieve the Agency of the requirement to prepare
            classification guides.

            According to the NHSRC security manager, about 8 years ago EPA discussed the
            need for classification guides. At the time, the Security Management Division
            argued that classification guides would not be required since the incumbent
            Administrator wanted to review all original classification actions and would not
            be delegating original classification authority. However, classification guides are
            necessary so that individuals without original classification authority are capable
            of identifying and ensuring proper safeguarding of information that could damage
            national security.

            In 2006, EPA published the National Security Information Handbook, Revision 1,
            which required that a classification guide be developed for each system, plan,
            program, or project that involved classified information. Administrators have used
            original classification authority to classify five documents since the current NSI
            handbook was published. By not preparing and distributing official classification
            guides, EPA is not following the guidance in its NSI handbook nor is it meeting
            the requirements of EO 13526 and the predecessor order.

            EPA Uses Other Guidance in Lieu of Classification Guides

            The NHSRC security manager prepared a topics handbook that is similar to a
            classification guide. The topics handbook contains elements that are required in a
            classification guide, but does not include identifying the original classification
            authority and including the date of issuance or last review. According to the
            security manager, he uses the topics handbook as a screening tool to establish
            standards and methods to exert objectivity and discipline in making original

11-P-0722                                                                                      3
            classification recommendations to the Administrator. The topics handbook
            contains a caveat that it is not authorized as a classification guide.

            EPA Classification Guides Could Be Used by Others

            Classification guides issued by EPA could be used by others, including those
            outside of EPA. The EPA documents originally classified by the Administrator
            were subsequently distributed to other agencies. Title 32 Code of Federal
            Regulations (CFR) § 2001.15(c) specifies that classification guides shall be
            disseminated as necessary to ensure the proper and uniform derivative
            classification of information. Because it does not prepare classification guides,
            EPA does not currently provide this guidance to other agencies that may use its
            originally classified information. EPA should distribute classification guides to
            other agencies that use its originally classified information to ensure uniform
            derivative classification of information.

            The NHSRC security manager expressed concern that classification guides were
            not prepared and distributed to other offices within EPA. Some of these offices
            work in subject areas that include sensitive information that may have previously
            been designated as classified NSI by the Administrator. Without classification
            guides that show the types of information that should be classified, these offices
            may unintentionally release classified information through unclassified means.
            Depending on the information released, national security could be seriously
            damaged.

Conclusions
            EPA has not implemented a key internal control to protect information that could
            damage the national security of the United States. Without classification guides,
            EPA has no assurance that classified NSI is properly identified or safeguarded at
            the Agency.

Recommendations
            We recommend that the Administrator:

               1.	 Ensure the preparation, review, and approval of appropriate security
                   classification guides that conform to the requirements of EO 13526,
                   Classified National Security Information, and EPA’s National Security
                   Information Handbook.

               2.	 Ensure the distribution of classification guides to users of EPA’s originally
                   classified information and to program offices that work in related subject
                   areas.



11-P-0722                                                                                       4
Agency Comments and OIG Evaluation
            OARM, responding on behalf of the Agency, disagreed with the report’s factual
            findings, interpretation of governing legal authorities, characterization of the
            program, conclusions, and recommendations.

            OARM does not believe that EPA needs to create a classification guide. To
            support its position, OARM offered an e-mail dated June 1, 2011, from the acting
            director, Information Security Oversight Office (ISOO), National Archives and
            Records Administration. ISOO is responsible for oversight of the government-
            wide security classification system and issued the federal regulation (32 CFR Part
            2001) that implements EO 13526. Based on a 2005 on-site review of EPA’s
            program and its regular monitoring of EPA activities, the acting director said he
            did not believe that EPA needed to create a classification guide since EPA has
            used its original classification authority only six times. He noted that in 2005,
            ISOO commended EPA for its decisionmaking process.

            The OIG disagrees. Classification guides are to facilitate derivative classification.
            It is specifically stated in EO 13526 that agencies with original classification
            authority shall prepare classification guides to facilitate the proper and uniform
            derivative classification of information. EPA internal guidance specifically
            requires security classification guides to be developed for each system, plan,
            program, or project in which classified information is involved. EPA’s guidance
            notes that classification guides also serve as declassification guides. EPA’s
            guidance also requires that the guides be revised whenever necessary to promote
            effective derivative classification. EPA has not complied with its own internal
            policies. In our opinion, this noncompliance is a material internal control
            weakness.

            OARM offered to have the NSI team (1) continue to work closely with ISOO, and
            (2) explore options for how best to enhance the classification process at EPA. The
            proposed alternative is unacceptable because it does not address the intent of the
            recommendations.

            The issues and recommendations for corrective action are unresolved and the
            material weakness is unaddressed. The Agency’s complete written response to the
            draft report, and our evaluation of the response, are in appendix A. The e-mail
            from ISOO’s acting director is in appendix B.




11-P-0722                                                                                      5
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                       POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                    BENEFITS (in $000s)

                                                                                                           Planned
    Rec.    Page                                                                                          Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1    Action Official       Date      Amount      Amount

     1        4     Ensure the preparation, review, and approval of           U       The Administrator
                    appropriate security classification guides that
                    conform to the requirements of EO 13526,
                    Classified National Security Information, and EPA’s
                    National Security Information Handbook.

     2        4     Ensure distribution of classification guides to users     U       The Administrator
                    of EPA’s originally classified information and to
                    program offices that work in related subject areas.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




11-P-0722                                                                                                                                6
                                                                                    Appendix A

            Agency Response to the Draft Report and 

                       OIG Evaluation


                                          June 10, 2011

MEMORANDUM

SUBJECT:	 Response to Early Warning Report OPE-FY10-0024

FROM:	         Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

TO:	           Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to comment on the Office of Inspector General’s (OIG’s) Early
Warning Report: EPA Should Prepare and Distribute Security Classification Guides, dated May
11, 2011.

The Office of Administration and Resources Management (OARM) believes that the Report is
not warranted. We respectfully disagree with the Report’s factual findings, interpretation of
governing legal authorities, characterization of EPA’s National Security Information (NSI)
program, conclusions, and recommendations. Our reasons are presented below, beginning with
the results of our consultation on the Report with the Acting Director of the Information Security
Oversight Office, National Archives and Records Administration.

Findings of the Information Security Oversight Office (ISOO)
The Security Management Division (SMD) consulted with ISOO about the Report and whether
EPA should prepare classification guides. ISOO is responsible to the President for policy and
oversight of the government-wide security classification system and the National Industrial
Security Program. ISOO receives authority from Executive Order (EO) 13526, Classified
National Security Information (the “Order”), December 29, 2009. ISOO is the federal executive
agent for implementation of EO 13526.

In a June 1, 2011, email to EPA’s NSI Team (attached), Acting Director William Cira stated the
following (emphasis added):

       ISOO does not believe that EPA needs to create a classification guide. ISOO does not
       believe that EPA is in violation of section 2.2 of the Order...EPA has strong processes
       in place to ensure that classification decisions are appropriate and in accordance
       with the Order...The purpose of Section 2.2 of the Order is to ensure that those agencies
       that have several [Original Classification Authorities (OCAs)] and make many

11-P-0722                                                                                      7
       classification decisions are doing so in an effective and efficient manner that aids the
       classification system by ensuring uniformity and consistency. EPA only has one OCA;
       unlike at almost all other agencies, it may not be delegated. Additionally, unlike almost
       all other agencies, it has a very minute amount of classification activity...While the exact
       letter of the Order seems to suggest that all agencies granted OCA authority by the
       president must have classification guides, there is still room for judgement and common
       sense. In our view, looking at the program and its activity in its entirety, EPA’s program
       is fully functioning and has the appropriate checks and balances in place to ensure that its
       classification program is consistent and effective.

 OIG Response: EO 13526 states that agencies with original classification authority shall
 prepare classification guides. EPA internal guidance also requires the issuance of classification
 guides. As stated under EO 13526, Section 2.2(a):

        Agencies with original classification authority shall prepare classification guides
        to facilitate the proper and uniform derivative classification of information.

 EPA’s NSI handbook states, in Section 2-208:

        A security classification guide shall be developed for each system, plan,
        program, or project in which classified information is involved.

 EPA has exercised both original and derivative classification actions, but has not issued the
 required classification guide, in contravention of the EO and its own guidance.

 With regard to ISOO, EO 13526 explicitly directs ISOO to take (1) the necessary steps to
 implement the order, (2) establish standards for classification and for classification guides, and
 (3) oversee agency actions to ensure compliance with the order. Federal government employees
 are charged with abiding by EO 13526. An e-mail from ISOO’s acting director, after
 noncompliance has been disclosed, neither excuses EPA from its responsibility to create
 classification guides nor releases EPA from its responsibility to comply with EO 13526. As
 stated under EO 13526, Section 5.5(b):

        Officers and employees of the United States Government, and its contractors,
        licensees, certificate holders, and grantees shall be subject to appropriate
        sanctions if they knowingly, willfully, or negligently . . . contravene any other
        provision of this order or its implementing directives.


Disagreement with the Report’s Factual Findings
First, the Report states: “EPA has not established any official classification guides even though
EPA Administrators have taken original classification actions” (p. 2). While ISOO verifies that
EPA does not currently need a classification guide (June 1, 2011, email), the NSI program took
forward-looking steps, beginning in June 2010, to create a classification guide in anticipation of
possible future needs. The Agency has in fact considered, although not approved and finalized,
several draft classification guides.

11-P-0722                                                                                        8
Second, the Report states: “The infrequent use of original classification authority at EPA does
not relieve the Agency of the requirement to prepare classification guides” (p. 3). ISOO’s June
1, 2011, email makes the infrequent use of original classification authority a primary
reason why EPA does not currently need a classification guide. In supporting his finding,
Acting Director Cira states: “EPA’s situation is unique in that the OCA may not be delegated and
it rarely needs to exercise this OCA authority.” The Report’s second finding is therefore in
conflict with the assessment of the federal executive agent responsible for implementation of EO
13526.

OIG Response: As noted above, the EO specifically states that classification guides shall be
prepared and specifically requires appropriate sanctions if any provision of the EO is
contravened. As stated in our draft report, our review found that “EPA has not established any
official classification guides even though EPA Administrators have taken original classification
actions.” OARM acknowledges in the response to our draft report that EPA does not have an
official (approved and finalized) classification guide. The existence, much less the mere
consideration, of several unapproved drafts does not change the fact that EPA does not have
any official classification guide.

OARM argues that “the infrequent use of original classification authority [is] a primary reason
why EPA does not currently need a classification guide.” The EO does not support this
position. The EO prescribes a uniform system for classifying, safeguarding, and declassifying
national security information, including information relating to defense against transnational
terrorism. Neither EO 13526 nor 32 CFR Part 2001 make a distinction between agencies that
make frequent or infrequent use of original classification authority, or between agencies that
have several original classification authorities and those that have only one original
classification authority.


Disagreement with the Report’s Interpretation of Governing Legal Authorities
The Report states: “EO 13526 requires agencies with original classification authority to prepare
classification guides to facilitate the proper and uniform derivative classification of information”
(p. 2), and also: “EPA is not meeting the requirements of EO 13526...” (p. 3). This conclusion
erroneously interprets the governing legal authorities here, by interpreting EO 13526 without
reference to the regulatory directives of 32 C.F.R. Parts 2001 and 2003.

EO 13526 repeatedly directs that in handling classified information, including the use of
classification guides, federal executive agencies, such as EPA must “conform to standards”
contained in legally binding directives “issued by” the Director of ISOO under the Order. EO
13526, Sec. 2.2, 4.2, 5.1 (2010). In fact, the Director of ISOO was charged with issuing
“binding” directives to implement EO 13526’s standards on classification guides. Id. at 5.1(5).
The Director of ISOO did so through promulgating 32 C.F.R. Parts 2001 and 2003 in 2010. 32
C.F.R. 2001.1(b) (“...these directives are binding on agencies”).

Nothing in Parts 2001 and 2003 mandates issuance of classification guides. In fact, the opposite
is true. 32 C.F.R. § 2001.15(c) explicitly states that classification guides “shall be disseminated

11-P-0722                                                                                         9
as necessary to ensure the proper and uniform derivative classification of information.” 32
C.F.R. § 2001.16 contains a directive for classification guidance review that presumes some
agencies with original classification authority may not have authored classification guides.

OIG Response: There is no misinterpretation. EO 13526 specifically states that agencies with
original classification authority shall prepare classification guides to facilitate the proper and
uniform derivative classification of information. The CFR sections, quoted (out of context) by
OARM, specifically tell users of the ISOO directive that they are to refer to the EO
concurrently for guidance. As stated in the Federal Register that implemented the regulations,
Supplementary Information:

       This final rule is issued pursuant to the provisions of 5.1(a) and (b) of
       Executive Order 13526 . . . and amends 32 CFR part 2001 . . . The purpose
       of this Directive is to assist in implementing the Order; users of the
       Directive shall refer concurrently to that Order for guidance.

Title 32 CFR § 2001.15 grants certain latitude in the dissemination of classification guides.
OARM’s reasoning misses the point that, for there to be latitude in the dissemination of a
classification guide, the Agency must first have prepared a classification guide. We also note
that OARM’s response did not address EPA’s failure to comply with its own guidance, the
2006 National Security Information Handbook, Revision 1. EPA’s guidance states in
Section 2-208:

       A security classification guide shall be developed for each system, plan,
       program, or project in which classified information is involved . . .
       Security classification guides will be approved in writing by the OCA
       authorized to classify the information. Copies of the guides will be
       distributed by the originating organization to those organizations and
       activities believed to be derivatively classifying information covered by
       the guide or have a valid need-to-know.

Contrary to OARM’s position, we believe that the preparation of classification guides is
required by EPA’s NSI handbook.


Disagreement with the Report’s Characterization of the NSI Program
The Report states: “...the lack of classification guides is a material internal control weakness in
EPA’s classified NSI program” (p. 3) and also: “Without classification guides, EPA has no
assurance that classified NSI is properly identified or safeguarded at the Agency” (p. 4). Yet
ISOO Acting Director Cira states in his June 1, 2011, email (emphasis added):

       EPA has developed a meticulous and rigorous process for deciding to originally
       classify records...ISOO has met yearly with EPA officials to discuss its classified
       national security program. Additionally, ISOO is in regular communication with EPA
       security staff to discuss EPA’s classified security program. Finally ISOO regularly
       monitors EPA’s classified national security program...EPA has strong processes in

11-P-0722                                                                                            10
       place to ensure that classification decisions are appropriate and in accordance with
       the Order.

Disagreement with the Report’s Conclusion and Recommendations
Because the Report relies on incorrect factual and legal bases and is contrary to the assessment of
ISOO, the federal executive agent responsible for EO 13526 and its implementing regulations,
OARM does not agree with the Report’s conclusions and recommendations. The Report’s
conclusion that EPA has not implemented a key internal control to protect information that could
“damage the national security of the United States” is unfounded.

The Report’s unqualified recommendations that the Administrator must immediately “ensure the
preparation, review, and approval of appropriate security classification guides” and “ensure the
distribution of classification guides” are also unfounded.

OIG Response: In our opinion, EPA’s long-term noncompliance with the EO and its own NSI
handbook constitutes a material internal control weakness. The OIG believes that the lack of
classification guides is itself a material internal control weakness. EPA Order 1000.24
Change 2, dated July 18, 2008, defines an internal control weakness in Section 11 as:

       A deficiency or flaw in the design or operation of a control that does not
       allow management or employees, in their normal course of performing
       their assigned function, to prevent or detect vulnerabilities in a timely
       manner.

In this case, the vulnerability is the potential release of information that might harm national
security. Further, contravening the EO meets the criteria in Section 8D of EPA Order 1000.24
for determining whether a weakness is material in nature:

       Program managers should use the following criteria to determine whether
       a weakness is material in nature: . . .
          3. Violates statutory, judicial, or regulatory requirements . . .


Alternative Actions/Next Steps
The NSI Team will continue to work closely with ISOO to advance EPA’s program in
anticipation of possible future needs. The Team will collaborate with the Office of Homeland
Security and the program offices to explore options for how best to enhance the classification
process at EPA.




11-P-0722                                                                                          11
                                                                                   Appendix B

      E-mail From the Information Security Oversight Office

The following e-mail was submitted by ISOO to EPA on June 1, 2011.

Subject: EPA Classification Policy

EPA has asked ISOO if it needs to create a classification guide in accordance with Section 2.2 of
Executive Order 13526 (“the Order”).

Finding: ISOO does not believe that EPA needs to create a classification guide. ISOO does not
believe that EPA is in violation of section 2.2 of the Order. ISOO continues to believe that EPA
has strong and sufficient controls in place with regard to its original classification program.

Background and supporting observations:
1. In the past seven fiscal years, EPA has originally classified a total of six documents. See FY
list at the bottom of this e-mail message.
2. EPA is one of the few agencies granted Original Classification Authority by the President.
Under the Order, only the Administrator serves as the OCA and she may not delegate this
authority. EPA’s situation is unique in that the OCA may not be delegated and it rarely needs to
exercise this OCA authority.
3. EPA has developed a meticulous and rigorous process for deciding to originally classify
records. ISOO conducted a detailed on-site review in September 2005 that among other items,
commended EPA for its decision-making process. At that time, ISOO found that EPA’s detailed
process ensured that each possible classification decision was well-thought out, rationale, and
informed. Further, ISOO found that this process involved all appropriate staff and offices,
including the Office of the Administrator.
4. Since this detailed on-site audit, ISOO has met yearly with EPA officials to discuss its
classified national security program. Additionally, ISOO is in regular communications with EPA
security staff to discuss EPA’s classified national security program. Finally, ISOO regularly
monitors EPA’s classified national security program and evaluates EPA’s reports and responses
to ISOO data calls and requests.
5. EPA has strong processes in place to ensure that classification decisions are appropriate and
in accordance with the Order.
6. The purpose of Section 2.2 of the Order is to ensure that those agencies that have several
OCAs and make many classification decisions are doing so in an effective and efficient manner
that aids the classification system by ensure uniformity and consistency. EPA only has one
OCA; unlike at almost all other agencies, it may not be delegated. Additionally, unlike almost
all other agencies, it has a very minute amount of classification activity.


Concluding remarks: While the exact letter of the Order seems to suggest that all agencies
granted OCA authority by the President must have classification guides, there is still room for
judgement and common sense. In our view, looking at the program and its activity in its entirety,

11-P-0722                                                                                     12
EPA’s program is fully functioning and has the appropriate checks and balances in place to
ensure that its classification program is consistent and effective.

2010-
Original-0
Derivative-16

2009-
Original-0
Derivative-4

2008-
Original-3
Derivative-10

2007-
Original-0
Derivative-13

2006-
Original-0
Derivative-46

2005-
O-2
D-5

2004-
O-1
D-0




11-P-0722                                                                                    13
                                                                                Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of Administration and Resources Management




11-P-0722                                                                               14
